2311 Douglas Street
Omaha, Nebraska 68102-1214

Q@OCKLE

Legal Brie fs E-Mail Address:
8 contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, et al.,
Petitioners,
ve
CITY OF PHILADELPHIA, PENNSYLVANIA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of May, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE JEWISH COALITION FOR
RELIGIOUS LIBERTY IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have
been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
HOWARD SLUGH JOSHUA PIERSON
Counsel of Record 61 Pierce St., N.E.
2400 Virginia Ave. N.W. Apt. 1126
Apt. C619 Washington, D.C. 20002
Washington, D.C. 20037 (434) 227-0256
(202) 930-1857 jpierson! 79@gmail.com
hslugh@jerLorg

Counsel for Amicus Curiae

Subscribed and sworn to before me this 27th day of May, 2020. .
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Keonse. 0. Loo Qudaaeh. hb le

Notary Public Affiant 39828

   
 

A GENERAL HOTARY-State of Mebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023,

   
 

Attorneys for Petitioners

Mark Leonard Rienzi The Becket Fund for Religious Liberty
Counsel of Record 1200 New Hampshire Ave., NW
Suite 700

Washington, DC 20036
rienzi@law.edu

Party name: Sharonell Fulton, et al.

202-507-0834

 

| Attorneys for Respondents
Leslie Cooper American Civil Liberties Union
Counsel of Record 125 Broad Street
New York, NY 10004

Icooper@aclu.org

Neal Kumar Katyal Hogan Lovells US LLP
Counsel of Record 555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Philadelphia Commission on Human Relations

 

212-519-7815

Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride

202 637 5528

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia,

 

 
